                              O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity



Ins pe ctor Ge ne ral



Paym e nt of Be ne fits to Individual

                                    s W h o D o Not H ave Th e ir O w n SocialSe curity
Num be r


Th e attach e d finalre port pre s e nts th e re s ul
                                                    ts of our audit of th e paym e nt of
be ne fits to individuals w h o do not h ave th e ir ow n SocialSe curity num be r (SSN)
(A-04-9 6-42000). Th e obje ctive of th e audit w as to re vie w SocialSe curity
Adm inis tration pol icie s and proce dure s to re cord and ve rify SSNs us e d by auxil iary
and s urvivor be ne ficiarie s be fore approving titl  e IIpaym e nts .

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl   ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , ple as e provide th e m w ith in
th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, pl e as e cal
                                                                              lm e or h ave
your s taff contact Pam e l
                          a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit, at
(410)9 65-9 700.




                                                   D avid C. W il
                                                                liam s

A ttach m e nt

cc:

O IG/ES

IO Re ading Fil

              e
O A Re ading File
Subje ct Fil
           e
B.A LEXA ND ER:bm c(cl
                     h )2-25-9 8
9 6-42000.FNL
                       E X E CUTIVE S U M M A R Y 


O BJECTIVE

Th e obje ctive of th is audit w as to re vie w SocialSe curity Adm inis tration (SSA )
pol icie s and proce dure s to re cord and ve rify SocialSe curity num be rs (SSN)us e d
by auxil   iary and s urvivor be ne ficiarie s be fore approving titl
                                                                    e IIpaym e nts .

BACKGROUND

D uring 19 9 6, SSA paid about $73 bil        lion to 12.3 m il  lion auxil iary and s urvivor
be ne ficiarie s of th e O ld-A ge , Survivors and D is abil  ity Ins urance (O A SD I)program
unde r title IIof th e SocialSe curity Act.1 In a re port is s ue d by th e D e partm e nt of
     th and H um an Se rvice s , O ffice of Ins pe ctor Ge ne ral(H H S/O IG)2 on
H e al
January 23, 19 87, it w as note d th at a s ignificant num be r of auxil          iary and s urvivor
be ne ficiarie s w h o w e re re ce iving be ne fits did not h ave SSNs re corde d or ve rifie d in
SSA s y s te m s . In re s pons e to our findings , th e Te ch nicaland M is ce l    lane ous
Re ve nue A ct (Publ    ic Law (P.L.)100-647)w as e nacte d on Nove m be r 10, 19 87.
Th e A ct re q uire d th at afte r June 1, 19 89 , al  lbe ne ficiarie s furnis h proof of an SSN
or e vide nce of appl    ication for an SSN in orde r to re ce ive be ne fits .

W ith th e e nactm e nt of P.L. 100-647, SSA im pl         e m e nte d ce rtain proce dure s
re q uiring be ne ficiarie s to provide proof of a val     id SSN or to appl    y for an SSN
be fore re ce iving be ne fits .3 For e xam pl   e , SSA proce dure s now re q uire fie l  d office s
(FO ) to annotate a cl     aim ant’s SSN on e ith e r th e M ode rnize d Cl    aim s Syste m (M CS)
or a m anualcl    aim form during th e appl      ication proce s s . Ifa cl  aim ant doe s not h ave
an SSN or provide s a num be r th at doe s not re concil          e w ith inform ation containe d in
oth e r SSA s y s te m s , FO s are re q uire d to re s ol
                                                         ve th e dis cre pancy be fore th e cl aim is
pl ace d in curre nt pay s tatus .

In th e e ve nt th at a cl aim ant is is s ue d be ne fits b e fore an accurate SSN is obtaine d,
SSA im pl  e m e nte d th e Be ne ficiary’  s O w n SocialSe curity Num be r (BO SSN)al   e rt
1
   O A SDIbe ne fits are paid to re tire d or dis abl  e d w ork e rs and th e ir q ual
                                                                                      ifie d de pe nde nts or s urvivors .
Th e s e de pe nde nts or s urvivors are re fe rre d to as auxil  iary or s urvivor be ne ficiarie s .

2
   Th e H H S/O IG re port w as e ntitl
                                      e d, Re vie w of Paym e nts to Auxil
                                                                         iary Be ne ficiarie s W ith out Th e ir
O w n SocialSe curity Num be r (CIN: A -13-86-62608).

3
  SSA’   s Program O pe rations M anualSyste m , RM 00207.035(A )(1)w as re vis e d to re ad, “A l       th ough
                          e m e nt, e ach titl
not re q uire d for e ntitl                  e IIcl             e d June 19 89 or l
                                                  aim ant e ntitl                 ate r m us t h ave and provide
an SSN, or m us t appl    y for an SSN to re ce ive be ne fits .”


                                                            i
proce s s . W ith th is program , FO s are notifie d via a BO SSN al       e rt w h e n be ne fits are
aw arde d to a cl   aim ant w ith e ith e r a m is s ing or unve rifie d SSN.4 Th e al  e rts are
is s ue d on a bim onth ly bas is untilth e corre ct SSN or nam e or date of birth h as
be e n am e nde d in th e appropriate SSA s y s te m . Bas e d on data obtaine d from SSA ,
th e A ge ncy is s ue d BO SSN al  e rts for 29 ,705 be ne ficiarie s during th e m onth s of
M arch and A pril19 9 7.

To accom pl   is h our obje ctive , w e re vie w e d l
                                                     aw s , re gul
 ations , and SSA proce dure s
re q uiring SSNs as a condition for re ce ipt of be ne fits . W e al       so h eld dis cus s ions

w ith SSA pe rs onne lto de te rm ine th e proce dure s us e d to proce s s be ne ficiary
cl aim s and re s olve BO SSN al   e rts . Additional ly, w e anal    yze d M as te r Be ne ficiary
Re cords (M BR)and oth e r appropriate s y s te m q ue rie s (e .g., Num ide nts ,
Al ph a-Inde x re ports , and D e ve lopm e nt W ork s h e e ts ) for a judgm e ntal  l
                                                                                      y-s e le cte d
s am pl e of 129 be ne ficiarie s . Be caus e our s am pl   e w as judgm e ntal   ly sel e cte d, w e
did not proje ct th e re s ults to th e totalpopul   ation of unve rifie d or m is s ing SSNs .

W e pe rform e d our audit w ork at SSA FO s l    ocate d in Birm ingh am and
Tal l
    ade ga, A labam a, and via te le ph one dis cus s ions w ith SSA pe rs onne lin
H ous ton, Te xas ;O rl
                      ando, Fl orida;M ine ol  a, Ne w York ;and Las Ve gas , Ne vada.
Fie l
    d w ork w as pe rform e d be tw e e n O ctobe r 19 9 6 and Se pte m be r 19 9 7.

RESULTS O F REVIEW

Alth ough SSA h as im pl   e m e nte d proce dure s de s igne d to com pl y w ith th e
provis ions of P.L. 100-647, SSA ’      s b e ne ficiary appl ication and paym e nt proce s s e s
continue to aw ard be ne fits to auxil    iary/s urvivor cl aim ants w ith unk now n or
unve rifie d SSNs . Spe cifical  ly, during M arch and A pril19 9 7, SSA paid be ne fits to
29 ,705 be ne ficiarie s w h o h ad m is s ing or unve rifie d SSNs .

Eve n th ough FO s w e re al    e rte d to th e m is s ing and dis cre pant inform ation on a
bim onth l  y bas is , w e found th at th e be ne ficiarie s incl   ude d in our s am pl   e h ad be e n
in curre nt pay s tatus for an ave rage of 3½ ye ars (ranging from 1 m onth to ove r
7 ye ars )w ith out any corre ctive action tak e n. In total          , th e 129 be ne ficiarie s
e xam ine d h ad be e n paid $2.2 m il    lion in titl  e IIbe ne fits b e tw e e n th e date s th at th e y
w e re initial y e ntitl
               l        e d to be ne fits and A pril30, 19 9 7. A s s uch , w e be l       ie ve th at
furth e r e fforts coul  d be tak e n to s tre ngth e n control   s w ith in SSA ’   s claim s
appl  ication proce s s to e ns ure com pl    iance w ith th e l  aw and A ge ncy re q uire m e nts .

In addition to s om e tim e s l
                              e ngth y de l
                                          ay s in re cording and ve rifying SSNs , SSA ’   s
practice of paying be ne fits to cl  aim ants w h o h ave m is s ing or unve rifie d SSNs h as
an im pact on paym e nt accuracy. For e xam pl       e , w ith in a s am pl
                                                                          e of 54 BO SSN

4
  An “  unve rifie d”SSN occurs w h e n a claim ant provide s an SSN, nam e , or date of birth th at doe s
not re concile w ith inform ation al
                                   re ady annotate d on SSA ’ s Num ide nt m as te r fil                    .
                                                                                       e for th at individual


                                                      ii
ale rts w ith m is s ing SSNs , w e ide ntifie d $19 ,609 in ove rpaym e nts and incorre ct
paym e nts to 4 be ne ficiarie s . Spe cifical  ly, w e ide ntifie d th re e be ne ficiarie s w ith
m is s ing SSNs w h o h ad e xce e de d annuale arnings l     im itations and w e re
s ubs e q ue ntly ove rpaid $4,444. Additional      ly, w e de te cte d anoth e r be ne ficiary w ith
a m is s ing SSN w h o h ad die d ove r 2 ye ars b e fore SSA te rm inate d h is b e ne fits . As
a re s ul t, SSA m ade paym e nts of $15,165 in e rror. Th e above ove rpaym e nts and
incorre ct paym e nts w e re not pre ve nte d or de te cte d by SSA be caus e th e SSNs
w e re m is s ing from th e M BR and, th e re fore , not m atch e d s ucce s s ful   l
                                                                                     y to annual
e arnings or State de ath data.

RECO M M END A TIO NS

W e re com m e nd th at SSA re s ol     ve al louts tanding m is s ing and unve rifie d SSNs in a
tim e ly m anne r. W e al    s o re com m e nd th at SSA re cove r ove rpaym e nts m ade to th e
th re e ide ntifie d be ne ficiarie s w h o h ad e arnings in e xce s s of th e annuall   im itations
and s e e k re s titution of be ne fits w rongl   y paid to a cl aim ant afte r h is d e ath .5

Additional   l
             y, w e re com m e nd th at SSA im prove control        s by re q uiring m anage m e nt
approvalto ove rride s y s te m e dits d e s igne d to pre cl ude th e aw ard of be ne fits to
claim ants w ith an unve rifie d SSN. Final      l
                                                 y, w e re com m e nd th at SSA is s ue a
m e m orandum to al     lpe rs onne lre s pons ibl
                                                 e for proce s s ing cl aim appl   ications th at
w illre e m ph as ize th e im portance of fol  low ing e s tabl
                                                              is h e d proce dure s s o th at a
prope r de te rm ination of e l      ity can be m ade .
                                igibil

AGENCY CO M M ENTS

In its w ritte n re s pons e to our draft re port, SSA agre e d w ith four of th e five
re com m e ndations . Spe cifical     l
                                      y, SSA s tate d th at it is al  re ady purs uing appropriate
re m e die s for th e cas e s in w h ich ove rpaym e nts and incorre ct paym e nts w e re
ide ntifie d. Furth e r, SSA pl   ans to is s ue a m e m orandum th at w il     l: 1)ins truct
pe rs onne lto re duce th e num be r of outs tanding al        e rts ;2)re e m ph as ize th e
im portance of fol     l
                       ow ing e s tabl is h e d proce dure s ;and 3)e val   uate s im ilar type cas e s
for indications of fraud and m ak e appropriate re fe rral          s to th e O ffice of th e
Ins pe ctor Ge ne ral(O IG).

SSA disagre e d w ith our re com m e ndation th at w oul      d re q uire SSA m anage m e nt
approvalto ove rride s y s te m e dits d e s igne d to pre cl ude th e aw ard of be ne fits to
claim ants w ith an unve rifie d SSN. In its re s pons e , SSA s tate d th at th e unve rifie d
SSNs re s ult from m inor dis cre pancie s be tw e e n inform ation e nte re d into M CS and
inform ation s tore d on th e Num ide nt. Furth e r, SSA re s tate d th at th e O IG audit did
not re port a m one tary e ffe ct as s ociate d w ith th e s am pl e of be ne ficiarie s w ith

5
   W e h ave al     s o re fe rre d th is m atte r to O ffice of th e Ins pe ctor Ge ne ral’s O ffice of Inve s tigations to
as s e s s w h e th e r pos t-de ath be ne fit ch e ck s w e re fraudul  e ntly ne gotiate d/m is us e d.


                                                              iii
unve rifie d SSNs . Th e re fore , SSA did not be l   ie ve th at re q uiring a m anage r’  s re vie w
to ove rride th e e dit w ould be cos t-e ffe ctive . Additional    ly, SSA as s e rte d th at th is
controlw oul   d im pe de th e proce s s ing of th e cl aim . SSA did agre e th at th e s e
dis cre pancie s s h oul
                       d be re s olve d in a tim e ly m anne r and w il   lis s ue a m e m orandum
to appropriate s taff. (Se e A ppe ndix A for th e ful     lte xt of th e A ge ncy’   s com m e nts .)

O IG RESPO NSE

O ur re vie w dis cl   os e d th at alth ough SSA h as im pl     e m e nte d proce dure s de s igne d to
com pl  y w ith th e provis ions of P.L. 100-647, w e be l           ie ve th at furth e r e fforts coul  d
be tak e n to s tre ngth e n control     s w ith in SSA ’ s cl aim s appl   ication proce s s to e ns ure
com pl  iance w ith l    e galand A ge ncy re q uire m e nts . W h il
   e criticalide ntifying
inform ation is com pare d to SSA ’         s m as te r fil
                                                          e s for al lcl aim ants , an e dit doe s not

pre ve nt paym e nt w h e n dis cre pancie s e xis t. SSA ’       s pol  icy s tate s th at if cl aim ant
inform ation e nte re d in M CS doe s not re concil          e w ith inform ation containe d in th e
M ode rnize d Enum e ration Sys te m (M ES), tw o D e ve l          opm e nt W ork s h e e t is s ue s
(ite m s ne e ding re s ol  ution)w il  lbe propagate d. Th e pol        icy al s o s tate s th at M CS
contains a re ce ipt date fie l     d in w h ich SSA pe rs onne ls h oul      d e nte r th e date
e vide nce w as pre s e nte d by th e cl     aim ant to re s ol ve th e dis cre pancy (D e ve l     opm e nt
W ork s h e e t is s ue ). H ow e ve r, if SSA pe rs onne lw ant to com pl         e te proce s s ing of a
cl aim and e vide nce h as not be e n pre s e nte d to re s ol      ve th e dis cre pancy, th e y m ay
e nte r s ix X’ s in th e re ce ipt date fie l d rath e r th an an actualdate .

W e be l ie ve th at th e inclus ion of s ix X’s (XXXXXX)in th e re ce ipt date fie l    d of th e
D e ve l
       opm e nt W ork s h e e t w ith out m anage m e nt concurre nce circum ve nts th e inte nt
of th e control   . Cons e q ue ntl y, O IG affirm s th is re com m e ndation and re q ue s ts th at
SSA re cons ide r its pos ition on re q uiring m anage m e nt approvalto ove rride s y s te m
e dits d e s igne d to pre clude th e aw ard of be ne fits to cl  aim ants w ith an unve rifie d
SSN. Furth e r, if FO pe rs onne lw e re re q uire d to re s ol                           e
                                                                 ve dis cre pancie s w h il
com pl  e ting th e initialclaim s appl  ication, th e ne e d for BO SSN al  e rts w ould be
re duce d s ignificantl  y.




                                                     iv
                       TA BLE O F CO NTENTS


                                                                                                    Page

EXECUTIVE SUM M A RY ..........................................................................i


INTRO D UCTIO N ...................................................................................1


RESULTS O F REVIEW ...........................................................................6


    TH E IM PO RTA NCE O F VA LID A TING M ISSING O R UNVERIFIED

    SSNs ..............................................................................................6


        SSA ’
            s Com pl

                   iance w ith Le galRe q uire m e nts ...................................6

        O ve rpaym e nts and Incorre ct Paym e nts Re s ul         te d from M is s ing

        SSNs .........................................................................................7


        Adm inis trative Probl

                             e m s Re s ul
                                         ting from Unve rifie d SSNs ...................8

    BO SSN A LERTS NO T RESO LVED IN A TIM ELY M A NNER .......................9


CO NCLUSIO N A ND RECO M M END A TIO NS .............................................12


A PPEND ICES


A ppe ndix A - Age ncy Com m e nts


A ppe ndix B - M ajor Re port Contributors


A ppe ndix C - SSA O rganizationalCh art

                                  INTR O D UCTIO N


O BJECTIVE

Th e obje ctive of th is audit w as to re vie w SSA pol icie s and proce dure s to re cord
and ve rify SSNs us e d by auxil  iary and s urvivor be ne ficiarie s be fore approving titl
                                                                                           e
IIpaym e nts .

BACKGROUND

D uring 19 9 6, SSA paid about $73 bil       lion to 12.3 m il  lion auxiliary and s urvivor
be ne ficiarie s of th e O A SD Iprogram unde r titl   e IIof th e SocialSe curity Act.
O A SD Ibe ne fits are paid to re tire d or dis abl e d w ork e rs and th e ir q ual
                                                                                   ifie d
de pe nde nts or s urvivors . SSA m aintains re cords of be ne ficiarie s and be ne fit
paym e nts by account num be rs . Th is account num be r is th e SSN of th e w age
e arne r on w h os e be h alf be ne fits are paid.

    s Cl
SSA ’  aim Appl
              ication and ApprovalProce dure s

W h e n an auxil  iary or s urvivor claim ant appl    ie s for titl
                                                                  e IIbe ne fits , th e individualis
re q uire d to provide s pe cific inform ation s uch as th e appl     icant’ s nam e , date of
birth , and SSN to an SSA cl      aim s re pre s e ntative (CR). Typical    ly, th e s e claim s are
m ade in pe rs on at an SSA FO by th e individualor h is or h e r re pre s e ntative (e .g.,
pare nt, guardian, re pre s e ntative paye e ). Inform ation and e vide nce re q uire d for
adjudication of a titl  e IIcl aim is outine
                                           l d in SSA re gul      ations . Additional     l
                                                                                          y, M CS
s cre e ns prom pt th e CR proce s s ing th e cl   aim to obtain and input re q uire d
inform ation during th e initialinte rvie w .

D uring th e cl aim appl  ication proce s s , M CS is com pare d to SSA ’     s Num ide nt m as te r
      6
file . Th is inte rface is drive n by th e SSN e nte re d in M CS for th e s ubje ct cl      aim ant.
Ifany inform ation re garding th e cl     aim ant doe s not m atch data containe d in th e
Num ide nt (e .g., nam e , date of birth , SSN), a D e ve l opm e nt W ork s h e e t is
propagate d indicating th at a dis cre pancy e xis ts w ith th e cl    aim ant’  s SSN. Th e
re s pons ible CR is re q uire d to re s ol
                                          ve allD e ve l
                                                       opm e nt W ork s h e e t is s ue s be fore th e
cl aim is adjudicate d and be ne fits are aw arde d. In ce rtain cas e s , th e cl      aim ant m us t
com pl  e te a Form SS-5, A ppl    ication for a SocialSe curity Num be r, to corre ct
inform ation containe d on th e Num ide nt. For e xam pl      e , if th e Num ide nt m as te r fil  e
s h ow s a be ne ficiary’s m aide n nam e but th e pe rs on is fil ing a cl  aim unde r a m arrie d
6
  Th e Num ide nt m as te r file contains al  lre l
                                                  e vant e num e ration inform ation (e .g., nam e , date of birth ,
         s m aide n nam e , e tc.) for e ach individualnum be r h ol
m oth e r’                                                            de r.


                                                         1

nam e , an SS-5 s h ould be com pl  e te d to re vis e th e Num ide nt. Al
                                                                         ong w ith th e SS-5,
th is appl
         icant w oul d als o h ave to provide e vide nce to s upport th e nam e ch ange ,
s uch as a m arriage ce rtificate .

Ifa cl aim ant doe s not h ave an SSN w h e n h e or s h e appl ie s for be ne fits ,
P.L. 100-647 and SSA proce dure s re q uire th at th e individualcom pl        e te an SS-5
be fore re ce iving paym e nts .7 A s w ith al
                                             lappl  icants for an SSN, th e cl    aim ant w oul
                                                                                              d
be re q uire d to provide e vide nce of age , ide ntity, and U.S. citize ns h ip be fore a
num be r w as is s ue d.

BO SSN A l
         e rt Proce s s

BO SSN al   e rts are ge ne rate d to FO s w h e n th e M BR of an auxil     iary or s urvivor
be ne ficiary w h o appl  ie d for be ne fits afte r June 1, 19 89 , contains an unve rifie d
SSN or is m is s ing an SSN. SSA im pl        e m e nte d tw o program s to ge ne rate BO SSN
ale rts : 1) th e M is ce l
                          lane ous Corre ctions program , w h ich initiate s th e BO SSN
unve rifie d al e rt proce s s ;and 2) th e Re gul  ar Trans cript A ttainm e nt and Se l  e ction
Pas s program , w h ich initiate s th e BO SSN m is s ing al    e rt proce s s .

BO SSN al    e rts are is s ue d on a bim onth l   y s ch e dul e , w h ich is bas e d on be ne ficiarie s ’
initialdate s of e ntitl    e m e nt. For e xam pl  e , if a claim ant be cam e e ntitl e d to be ne fits
in January 19 9 0, but did not provide an SSN during th e appl                  ication proce s s , a
BO SSN al    e rt w oul  d be ge ne rate d to th e FO th at proce s s e d th e cl    aim e ve ry odd-
num be re d m onth (e .g., M arch , M ay, Jul        y, e tc.)untilth e SSN w as re corde d and
ve rifie d in th e s y s te m . If th e cl aim ant be cam e e ntitl  e d in Fe bruary 19 9 0, but
provide d a diffe re nt nam e or date of birth th an al          re ady re corde d in SSA ’  s
Num ide nt m as te r fil    e , an ale rt w oul d be is s ue d to th e re s pons ible FO e ve ry
e ve n-num be re d m onth (e .g., A pril      , June , Augus t, e tc.)untilth e dis cre pant
inform ation w as re s ol      ve d and corre cte d.

Pre vious A udit Findings

In an audit re port e ntitl e d, “Re vie w of Paym e nts to Auxiliary Be ne ficiarie s W ith out
Th e ir O w n SocialSe curity Num be r”(CIN: A -13-86-62608), is s ue d
January 23, 19 87, H H S/O IG note d th at th e l    ack of SSNs for auxil  iary be ne ficiarie s
h ad a s ignificant e ffe ct on SSA 's abil ity to m onitor paym e nt accuracy and to
de te ct and re cove r ove rpaym e nts .




7
   UntilAugus t 19 9 7, h ow e ve r, SSA did not adh e re to th is re q uire m e nt. Spe cifical
                                                                                               ly, SSA
adjudicate d and aw arde d be ne fits to cl   aim ants w h o did not provide an SSN. A ccording to SSA , a
                                 e as e d on Augus t 25, 19 9 7, now pre cl
re vis e d ve rs ion of M CS, re l                                         ude s th e adjudication of a cl
                                                                                                         aim if
no SSN is provide d.


                                                       2

Spe cifical ly, th e re port ide ntifie d th e fol
                                                 low ing five are as th at coul
                                                                              d be im prove d if
be ne ficiarie s w e re re q uire d to provide e vide nce of an SSN as a condition of
paym e nt.

Prior Cl aim s /O ve rpaym e nts Re cove ry: Th e us e of an SSN as a pe rs onalide ntifie r
w oul d allow SSA to dire ctl    y re fe re nce ove rpaym e nts to th e l    iabl e individuals o th at
th e A ge ncy coul  d e ns ure col  l
                                    e ction from future be ne fits . For e xam pl       e , a 19 85
Re cove ry of O ve rpaym e nt, Accounting and Re porting m as te r fil           e incl ude d
approxim ate l  y 45,500 auxil    iary be ne ficiarie s , re pre s e nting an e s tim ate d $29 m il  l
                                                                                                      ion
in ove rpaym e nts , for w h ich SSA did not h ave SSNs re corde d. A s a re s ul             t, th e
ove rpaym e nts coul   d not be dire ctl   y re fe re nce d for future re cove ry s h oul   d th e
individual s b e com e e ntitle d to be ne fits unde r th e ir ow n SSN or anoth e r account
num be r at a s ubs e q ue nt date . Th e re fore , re cove ry activitie s w e re te rm inate d.

A nnualEarnings /Enforce m e nt: Re q uiring SSNs from appl       icants /be ne ficiarie s w oul
                                                                                               d
e nable SSA to m onitor com pl      iance w ith th e annuale arnings lim itation for th e ove r
1.2 m illion be ne ficiarie s w h o did not h ave val id SSNs on re cord at th e tim e th e
re port w as is s ue d.

State D e ath D ata: Th e com paris on of State de ath data to be ne ficiary paym e nt
re cords is k e ye d to th e SSN. Th e re fore , be ne ficiarie s w ith m is s ing or unve rifie d
SSNs are not s ubje ct to th e re vie w provide d by th e State de ath data m atch . Th e
audit re port s tate d th at th e m atch h ad s ucce s s ful
                                                           ly ide ntifie d $32 m il lion in
e rrone ous paym e nts w h e n SSNs w e re avail    abl e.

D upl icate Paym e nt D e te ction: A t th e tim e th e audit re port w as is s ue d, th e M as te r
File D upl ication D e te ction O pe ration (M A FDUP)us e d nam e , date of birth , and
Z IP code in a com pute r m atch de s igne d to de te ct dupl      icate paym e nts . Be caus e
unve rifie d SSNs ofte n prove d to be unre l    iable , th is crite rion w as not us e d in
M A FDUP. H ow e ve r, h ad th e SSNs b e e n ve rifie d, th is data coul     d h ave prove d
val uabl e in th is d e te ction proce s s .

Taxation of Be ne fits : Th e us e of SSNs w oul     d al s o al
                                                               low SSA to provide th e
Inte rnalRe ve nue Se rvice (IRS)w ith be ne fit paym e nt data th at is com patibl        e w ith
IRS proce s s ing. H ow e ve r, w ith out SSNs , IRS m us t us e oth e r le s s -e fficie nt
ch anne ls to as s e s s and colle cttaxe s for be ne fits paid to individual   s w ith out th is
inform ation. A s a re s ul t, re ve nue s attributable to taxe s im pos e d on be ne fits m ay
not be re alize d.

H H S/O IG re com m e nde d, am ong oth e r th ings , th at SSA s e e k le gis lative auth ority to
re q uire a valid SSN, or an appl   ication for an SSN, as a pre re q uis ite to re ce iving
m onth l y be ne fit paym e nts . SSA agre e d and incl  ude d in its Fis calYe ar 19 88
Le gis lative Propos al s a re com m e ndation th at auxil iary be ne ficiarie s provide th e ir



                                                   3

ow n SSNs as a re q uire m e nt for re ce ipt of be ne fits . Th is propos alw as e nacte d as
part of P.L. 100-647, w h ich contains th e fol    low ing provis ion:

    Re q uire , as a condition for re ce iving SocialSe curity be ne fits , th at
    be ne ficiarie s e ith e r furnis h th e ir SSN or appl  y for one . Th e provis ion is
    e ffe ctive w ith e ntitl  e m e nts b e ginning afte r M ay 19 89 .

Additional
         ly, th e SocialSe curity Act, titl
                                          e II, s e ction 205(c)(2)(F) w as am e nde d to
s tate :

    Th e Com m is s ione r of SocialSe curity s h al   lre q uire , as a condition for re ce ipt
                                  e , th at an individualfurnis h s atis factory proof of a
    of be ne fits unde r th is titl
    SocialSe curity account num be r as s igne d to s uch individualby th e
    Com m is s ione r of SocialSe curity or, in th e cas e of an individualto w h om no
    s uch num be r h as b e e n as s igne d, th at s uch individualm ak e prope r
    appl ication for as s ignm e nt of s uch a num be r.

SCO PE AND M ETH O D O LO GY

Th e obje ctive of our audit w as to re vie w SSA pol icie s and proce dure s to re cord
and ve rify SSNs us e d by auxil iary and s urvivor be ne ficiarie s be fore approving
titl
   e IIpaym e nts .

To accom pl  is h our obje ctive , w e re vie w e d l
                                                    aw s and re gul ations re q uiring SSNs as
a condition for th e re ce ipt of be ne fits . W e al s o conducte d dis cus s ions w ith SSA
pe rs onne lto de te rm ine th e proce dure s us e d to proce s s be ne ficiary claim s and
      ve BO SSN al
re s ol              e rts .

Th e audit pe riod re vie w e d be gan w ith th e initialdate of e ntitl     e m e nt for e ach
be ne ficiary incl  ude d in our s am pl e and e nde d on A pril30, 19 9 7. W e anal          yze d
M BRs , and oth e r appropriate s y s te m q ue rie s (e .g., Num ide nts , Al     ph a-Inde x
re ports , and D e ve lopm e nt W ork s h e e ts ) for th is judgm e ntal  l
                                                                           y-s e l
                                                                                 e cte d s am ple of
be ne ficiarie s . Th e s am ple incl ude d 54 be ne ficiarie s from a popul       ation of
5,49 2 m is s ing SSNs th at FO s w e re al    e rte d to in M arch 19 9 7. W e al      so sele cte d
75 be ne ficiarie s from th e popul    ation of 8,9 56 unve rifie d SSNs th at FO s w e re
al e rte d to in A pril19 9 7. W e ch os e th e s e s am pl   e ite m s from am ong th e FO s w ith
th e l arge s t num be r of ale rts as follow s : 1) th e firs t 20 m is s ing SSNs from 2 FO s
and a totalof 14 oth e r m is s ing SSNs from 2 additionalFO s ;and 2) th e firs t
5 unve rifie d BO SSNs from e ach of 15 FO s .

Be caus e our s am ple w as judgm e ntal     ly sel
                                                  e cte d, th e re s ul
                                                                      ts w e re not proje cte d to
th e totalpopul ation of m is s ing and unve rifie d SSNs . O ur re vie w of docum e ntation
and any ide ntifie d w e ak ne s s e s re l
                                          ate d onl
                                                  y to th e ite m s in our s am pl e.



                                                   4

W e re vie w e d th os e inte rnalcontrolproce dure s ne ce s s ary to m e e t our obje ctive s .
Audit w ork w as conducte d at th e SSA FO s l         ocate d in Birm ingh am and Tal lade ga,
Al abam a, and via te l   e ph one dis cus s ions w ith SSA pe rs onne lin H ous ton, Te xas ;
O rlando, Fl orida;M ine ol    a, Ne w York ;and Las Ve gas , Ne vada. Fie l   d w ork w as
pe rform e d be tw e e n O ctobe r 19 9 6 and Se pte m be r 19 9 7. O ur audit w as conducte d
in accordance w ith ge ne ral     ly acce pte d gove rnm e nt auditing s tandards .




                                               5

                          R E S U LTS O F R E VIE W


Since th e e nactm e nt of P.L. 100-647, SSA h as s ignificantl           y re duce d th e num be r of
auxil  iary and s urvivor be ne ficiarie s w h o re ce ive be ne fit paym e nts w ith out a
ve rifie d SSN. In 19 9 0, th e ye ar fol   low ing im pl  e m e ntation of th e law , SSA is s ue d
approxim ate l  y 116,000 BO SSN al       e rts . H ow e ve r, during M arch and A pril19 9 7,

th e re w e re 29 ,705 be ne ficiarie s w ith m is s ing or unve rifie d SSNs

(18,480 unve rifie d and 11,225 m is s ing)in curre nt pay s tatus .8 W h il
        e we
ack now l  e dge th at SSA h as m ade cons ide rabl      e s tride s in im proving its practice of
re cording be ne ficiary SSNs , w e be l    ie ve th at furth e r e fforts coul d be tak e n to
s tre ngth e n controls w ith in SSA ’ s cl  aim s appl  ication proce s s to e ns ure com pl   iance
w ith th e l aw and A ge ncy re q uire m e nts .

TH E IM PO RTANCE O F VA LID A TING M ISSING O R UNVERIFIED SSNS

In addition to be ing contrary to l    e gals tipul  ations , SSA ’ s practice of paying be ne fits
to cl aim ants w h o h ave m is s ing or unve rifie d SSNs h as an im pact on oth e r A ge ncy
re s pons ibilitie s as discussed in th e fol low ing re port s e ctions . Spe cificall
                                                                                      y, w ith in
our s am pl  e of 54 m is s ing BO SSN al  e rts , w e ide ntifie d $19 ,609 in ove rpaym e nts
and incorre ct paym e nts th at can be attribute d to m is s ing SSNs for four
be ne ficiarie s . Additional  y, SSA pe rs onne ladvis e d th at th e five audit is s ue s
                               l
     l d in th e H H S/O IG 19 87 audit re port continue to occur be caus e of unve rifie d
outine
SSNs .

Al th ough FO s w e re al  e rte d to th e m is s ing and dis cre pant inform ation on a
bim onth l y bas is , w e found th at th e be ne ficiarie s incl  ude d in our s am pl   e h ad be e n
in curre nt pay s tatus for an ave rage of 3½ ye ars (ranging from 1 m onth to ove r
7 ye ars )w ith out any corre ctive action tak e n. In total        , th e 129 be ne ficiarie s
e xam ine d h ad be e n paid $2.2 m il    lion in title IIbe ne fits b e tw e e n th e date s th at th e y
w e re initial
             ly e ntitle d to be ne fits and A pril30, 19 9 7.

SSA ’
    s Com pl
           iance w ith Le galRe q uire m e nts

P.L. 100-647 and SSA pol        icie s re q uire be ne ficiarie s to provide proof of an SSN or
to s ubm it an appl   ication for an SSN be fore re ce iving SocialSe curity be ne fits .
H ow e ve r, at th e tim e of our audit fie l  d w ork , FO pe rs onne lcoul  d proce s s be ne fit

8
    O ur s am pl e cas e s w e re de rive d from a s ubs e t of th e 29 ,705 be ne ficiarie s . Th is s ubs e t incl
                                                                                                                   ude d
5,49 2 m is s ing SSNs and 8,9 56 unve rifie d SSNs th at FO s w e re al       e rte d to in M arch and A pril19 9 7
              y.
re s pe ctive l


                                                            6

paym e nts e ve n th ough an SSN w as m is s ing or h ad not be e n ve rifie d. Spe cifical  l
                                                                                             y,
be fore A ugus t 25, 19 9 7, th e A ge ncy’ s autom ate d s y s te m s did not pre clude
paym e nt to be ne ficiarie s w ith out an SSN. Additional     ly, FO pe rs onne lcoul d bypas s
ce rtain controls w ith in SSA ’  s M CS th at w e re de s igne d to pre ve nt adjudication of
claim s for individual s th at provide d nam e s , date s of birth , or SSNs th at did not
agre e w ith data re corde d in oth e r SSA s y s te m s .

A ccording to SSA FO pe rs onne l     , a ne w re l e as e of M CS, im pl
                                                                        e m e nte d on
Augus t 25, 19 9 7, contains a controlth at pre ve nts th e adjudication and paym e nt
of be ne fits to a be ne ficiary w ith a m is s ing SSN. W e com m e nd SSA ’     s e fforts to
be tte r controlth e initialre cording of be ne ficiarie s SSNs . H ow e ve r, as e xpl   aine d
late r in th is re port, SSA pe rs onne lare s tillabl  e to adjudicate claim s w h e n an SSN
is unve rifie d. A s s uch , SSA practice s s til  lm ay not ful l
                                                                 y com pl y w ith l e gal
re q uire m e nts .

For e xam pl    e , w ith in our s am pl e of 75 unve rifie d SSNs , w e ide ntifie d 10
(13 pe rce nt) for w h ich th e SSN appe aring on th e M BR w as incorre ct.9 Th e s e
10 individual      s w e re paid $109 ,325 ove r an ave rage of al        m os t 4 ye ars . O ur re vie w
s h ow e d th at a ce rtain am ount of th e s e incorre ct num be rs w e re attributabl         e to
cl e ricalor cl   aim ant e rror. As pointe d out in a pre vious O IG re port e ntitl       e d,
“Re vie w of Inte rnalControl        s in th e SocialSe curity Adm inis tration’       s M ode rnize d
Cl  aim s Syste m ”(A-04-9 5-06019 ), is s ue d M ay 16, 19 9 7, w ith out ve rifiabl           e SSNs ,
e m pl  oye e s h ave th e opportunity to cre ate fal    s e auxil  iary and s urvivor cl    aim s
th rough im prope r us e of e xis ting SSNs . Ne ve rth e l     e s s , in re s pons e to th is and
pre vious H H S/O IG re ports , SSA m anage m e nt de cl       ine d to im pl    e m e nt controls
de s igne d to: 1)re q uire m anage m e nt approvalfor th e adjudication of a cl               aim w h e n
th e be ne ficiary’   s SSN is unve rifie d;and 2)pre ve nt th e re s ol       ution of BO SSN al   e rts
by th e s am e e m pl     oye e w h o adjudicate d th e originalcl    aim .

O ve rpaym e nts and Incorre ct Paym e nts Re s ul
                                                 te d from M is s ing SSNs

O ur audit confirm e d th at SSA ’  s failure to obtain and re cord SSNs for auxil       iary
be ne ficiarie s h as an im pact on th e accuracy of SSA paym e nts . For e xam pl        e , of
th e 54 individual   s include d in our s am ple for w h om SSA h ad no account num be r,
3 (6 pe rce nt)e xce e de d annuale arnings l   im itations and w e re s ubs e q ue ntly
ove rpaid $4,444 in be ne fits . Additional    ly, w ith in th e m is s ing BO SSNs re vie w e d,
w e ide ntifie d incorre ct paym e nts of $15,165 to one be ne ficiary (2 pe rce nt)w h o
h ad die d ove r 2 ye ars b e fore paym e nts w e re te rm inate d. Th e ove rpaym e nts and
incorre ct paym e nts to th e s e individual s w e re not pre ve nte d or de te cte d by SSA
be caus e th e SSNs w e re m is s ing from th e M BR and, th e re fore , not m atch e d
s ucce s s ful
             ly to annuale arnings or State de ath data.

9
   Th e re m aining 65 be ne ficiarie s incl
                                           ude d in th e unve rifie d SSN s am pl
                                                                                e h ad dis cre pancie s be tw e e n
th e nam e s or date s of birth as re corde d on th e M BR and th os e s h ow n on th e Num ide nt m as te r fil e.


                                                         7

A t th e tim e of our audit fie l d w ork , SSA h ad an on-l        ine e dit w ith in M CS th at
cre ate d a D e ve lopm e nt W ork s h e e t th at ide ntifie s is s ue s to be re s olve d w h e ne ve r
dis cre pant or m is s ing inform ation w as e nte re d for a cl       aim ant. Th is s cre e n w as
inte nde d to facil itate th e re s ol
                                     ution of dis cre pancie s during th e appl        ication proce s s .
H ow e ve r, our obs e rvations confirm e d th at th e s e dis cre pancie s did not h ave to be
re s olve d be fore a cl aim w as adjudicate d and paym e nts is s ue d to th e be ne ficiary.

For e xam pl  e , D e ve l
                         opm e nt W ork s h e e ts for four be ne ficiarie s h ad a “?”in pl ace of
th e claim ants ’SSNs . Ne ve rth e l  e s s , SSA is s ue d paym e nts to th e s e individual s for
an ave rage of 2 ye ars w ith out re cording val        id SSNs . In total   , th e 54 auxil
                                                                                           iary
be ne ficiarie s incl ude d in our s am pl  e w e re paid ove r $1 m il  l
                                                                         ion during our audit
pe riod, e ve n th ough SSA h ad no SSNs re corde d for th e s e individual          s.

A s e xpl aine d pre vious l  y, a ne w re vis ion of M CS appe ars to h ave provide d th e
control  s ne ce s s ary to pre ve nt furth e r paym e nts to be ne ficiarie s w ith out SSNs .
A ccordingl  y, w e w il  lm ak e no re com m e ndations in th is re port re garding control    s in
th is are a. Ne ve rth e le s s , w e e ncourage SSA to re s olve al  lof th e m is s ing SSNs th at
re m ain outs tanding s o th at th e A ge ncy can pre ve nt any furth e r ove rpaym e nts and
e ns ure com pl  iance w ith l    e galre q uire m e nts .

                     e m s Re s ul
Adm inis trative Probl           ting from Unve rifie d SSNs

Al th ough w e note d no m one tary e ffe cts in th e s am pl   e of be ne ficiarie s w ith
unve rifie d SSNs , SSA pe rs onne ladvis e d th at th e adm inis trative burde ns caus e d by
unve rifie d SSNs , w h ich w e re outinel d in th e 19 87 H H S/O IG audit re port, continue .
Spe cifical  y, th e l
             l        ack of a ve rifie d SSN can pre cl  ude : 1) th e re cove ry of ce rtain
ove rpaym e nts ;2)annuale arnings e nforce m e nt;3)State de ath data m atch ing;
4)dupl    icate paym e nt de te ction;and 5)taxation of be ne fit re porting. For e xam pl           e,
H H S/O IG re porte d th at w ith out a val  id SSN, SSA is unabl     e to accurate l y re port
individualbe ne fit inform ation to th e IRS. A s a re s ul    t, IRS m us t us e oth e r l ess­
e fficie nt ch anne ls to as s e s s and col
                                           le ct taxe s for be ne fits paid to individual    s w ith
inval id account num be rs . Th e re fore , re ve nue s attributabl   e to taxe s im pos e d on
be ne fits m ay not be re al   ize d.

O f th e 75 unve rifie d BO SSN al  e rts incl
                                             ude d in our s am pl e , 73 re s ulte d from a
dis cre pancy be tw e e n th e nam e , date of birth , and/or SSN e nte re d during th e
claim s appl ication proce s s and th at re corde d on SSA ’   s M ES.10 D is cre pancie s can
be caus e d by nam e ch ange s not pre vious l   y re porte d to SSA or variations in th e
s pe l
     ling and/or arrange m e nt of nam e s . Additional   ly, date s of birth varie d for
ce rtain claim ants w h o firs t applie d for an SSN (ge ne ral ly, be tw e e n 19 25 and

10
   M ES is th e s y s te m SSA e m ploys to e nte r e num e ration data (e .g., nam e , date of birth , m oth e r’
                                                                                                                 s
                s nam e , e tc.)provide d by SSN appl
nam e , fath e r’                                       icants and to ge ne rate SocialSe curity cards .


                                                         8

19 50), w h e n SSA did not re q uire e vide ntiary proof of age . As a re s ul
                                                                              t, th e
inform ation initiall
                    y re corde d on M ES m ay not h ave be e n accurate . O th e r
dis cre pancie s appe ar to be caus e d by cl e ricalor cl
                                                         aim ant e rrors and/or ove rs igh t.

Th e m os t re ce nt M CS re l
                             e as e (3.6.1)is s ue d on Augus t 25, 19 9 7, s tate s , in part,

        M CS inte rface s w ith M ES w h e n th e nam e (s )e nte re d on th e A ppl  ication
        s cre e n (A PPL)dis agre e s w ith th e Num ide nt nam e . W h e n th e nam e (s )is
        dis cre pant, M CS propagate s th e M ES s cre e ns at th e e nd of th e appl      ication
        path . Th is ge ne rate s 2 ne w D e ve lopm e nt W ork s h e e t (D W 01)is s ue s ,
        CLNA M E or NH NA M E. Th e s e is s ue s m us t s h ow a re ce ipt date (or
        XXXXXX)be fore th e cl       aim can be adjudicate d. [Em ph as is adde d.]

In s um m ary, th is pol     icy s tate s th at if cl
                                                    aim ant inform ation e nte re d in M CS doe s not
re concil  e w ith inform ation containe d in M ES, tw o D e ve l        opm e nt W ork s h e e t is s ue s
(ite m s ne e ding re s ol  ution)w il   lbe propagate d. Th e pol     icy al s o s tate s th at M CS
contains a re ce ipt date fie l      d in w h ich SSA pe rs onne ls h oul   d e nte r th e date
e vide nce w as pre s e nte d by th e cl      aim ant to re s olve th e dis cre pancy (D e ve l   opm e nt
W ork s h e e t is s ue ). H ow e ve r, if SSA pe rs onne lw ant to com pl       e te proce s s ing of a
cl aim w h e n e vide nce h as not be e n pre s e nte d to re s ol    ve th e dis cre pancy, th e y m ay
e nte r s ix X’ s in th e re ce ipt date fie l  d rath e r th an an actualdate .

W e be l ie ve th at th e inclus ion of s ix X’
                                              s (XXXXXX)in th e re ce ipt date fie l    d of th e
D e ve l
       opm e nt W ork s h e e t w ith out m anage m e nt concurre nce circum ve nts th e inte nt
of th e control   . Al th ough dis cre pancie s and e rrors can be e xpe cte d in any proce s s
of th is m agnitude , w e be l  ie ve th at SSA can e ns ure be tte r com pliance w ith
P.L. 100-647, if th is controlcoul       d not be bypas s e d by pe rs onne loth e r th an FO
m anage m e nt. Furth e r, if FO pe rs onne lw e re re q uire d to re s ol
                                                                         ve dis cre pancie s
w h il
     e com pl  e ting th e initialcl aim s application, th e ne e d for BO SSN al e rts w oul d be
re duce d s ignificantl  y.

BO SSN A LERTS NO T RESO LVED IN A TIM ELY M A NNER

Al th ough re s pons ibl   e FO s are notifie d of m is s ing or unve rifie d SSNs on a
bim onth l  y bas is , th e 129 be ne ficiarie s incl ude d in our s am pl   e s h ad be e n paid
al m os t $2.2 m il   l
                      ion ove r an ave rage 3½ ye ars (ranging from 1 m onth to ove r
7 ye ars ). As such , FO s re ce ive d an ave rage of 21 al         e rts (ove r 42 m onth s ) for th e
ite m s re vie w e d. Se ve ralFO m anage rs w ith w h om w e s pok e e xpl         aine d th at
re s olving BO SSN al     e rts is a l ow priority am ong th e m any oth e r dutie s as s igne d to
th e ir office s . As such , FO pe rs onne ldo not al      w ay s inve s tigate BO SSN al     e rts in a
tim e ly m anne r. O ne FO m anage r de fine d th e re s ol      ution of BO SSN al    e rts as s im pl y
a “re concil   iation of re cords ”and as s e rte d th at FO pe rs onne ls h oul     d m ore
appropriate l    y s pe nd th e ir tim e w ork ing to ge t be ne fits to SSA re cipie nts .



                                                    9

H ow e ve r, as discussed pre vious l     y, obtaining ve rifiabl    e SSNs for auxil       iary and
s urvivor be ne ficiarie s can h e l p to e ns ure paym e nt accuracy and pre ve nt oth e r
adm inis trative and re porting de ficie ncie s . For e xam pl        e , if re s pons ibl e FO s h ad
re s ol
      ve d th e BO SSN al    e rts for th e th re e be ne ficiarie s in our l   im ite d s am pl e who
e xce e de d annuale arnings l     im itations in a m ore tim e l   y m anne r, SSA coul        d h ave
e ns ure d th at th e s e and al loth e r be ne ficiarie s w ith unre s ol  ve d SSNs w e re
s ubje cte d to appropriate e arnings te s ts in s ubs e q ue nt ye ars , th e re by pre cl       uding
furth e r ove rpaym e nts .

O f th e 129 BO SSN al  e rts e xam ine d, w e de te rm ine d th e corre ct SSN or ide ntifie d
th e dis cre pancy pre cl
                        uding ve rification for al    lbut 6 (5 pe rce nt)of th e be ne ficiarie s ,
as s h ow n in th e fol
                      low ing tabl e . Th e s e s ix individuals w e re paid a totalof
$9 8,445 ove r an ave rage of 4 ye ars .

                    M is s ing and Unve rifie d BO SSN A l
                                                         e rts Re vie w e d

                                                  A ve rage
                         Num be r of             Num be r of                                      SSNs Not
                        BO SSN A l  e rts       Ale rts Is s ue d      TotalBe ne fits          Ide ntifie d by
Cate gory                 Re vie w e d            Pe r SSN                 Paida                 Audit Te am
M is s ing                     54                      21               $1,061,713                     4
Unve rifie d                   75                      21                1,137,838                     2
Total                        129                      21                $2,19 9 ,551                   6

        a
         Totalbe ne fits paid re pre s e nt th e am ount paid to th e 129 cl
                                                                           aim ants be tw e e n th e ir
                                             e m e nt and A pril30,19 9 7.
        re s pe ctive initialdate s of e ntitl

        Source : O IG anal
                         y s is of M BR and M ES data for th e 129 BO SSN al
                                                                           e rts s am pl
                                                                                       e d.

To de te rm ine th e corre ct SSNs , w e re s e arch e d pe rtine nt SSA s y s te m s , incl uding
th e Num ide nt m as te r fil e , Alph a-Inde x Q ue rie s , and in s om e ins tance s ,
D e ve lopm e nt W ork s h e e ts . W e re cognize th at to com pl   y w ith th e inte nt of
P.L. 100-647, SSA pe rs onne lm ay be re q uire d to pe rform additionals te ps to
prope rl y update A ge ncy re cords . For e xam pl       e , FO pe rs onne lm ay ne e d to contact
be ne ficiarie s to obtain SS-5 appl     ications and s upporting e vide nce to is s ue SSNs to
th e s ix individual s for w h om w e coul    d not l ocate an SSN. Additional       ly, SSA
pe rs onne lm ay h ave to contact be ne ficiarie s s o th at th e y can de te rm ine th e re as on
for and pos s ibl  e re s ol
                           ution of unve rifie d SSNs (e .g., be ne ficiary provide d w rong
num be r, nam e , or date of birth ). Furth e r, SSA pe rs onne lm us t re vis e th e
inform ation containe d in e ith e r th e M BR or Num ide nt m as te r fil    e.

Alth ough re s ol ution of BO SSN al     e rts m ay be a low priority in FO s , w e do not
be l
   ie ve it s h oul
                  d tak e an ave rage of 3 ye ars , or a m axim um of 7 ye ars , to
com pl e te . W e bas e th is as s e rtion on th e re s ul
                                                         ts of our analy s is .



                                                       10

A gain, w e be l    ie ve th at th e ne e d for BO SSN al   e rts coul  d be re duce d s ignificantl  y if
SSA im pl    e m e nte d control   s th at pre cl
                                                ude d adjudication of cl      aim s and paym e nt of
be ne fits unl  e s s ve rifiabl e SSNs are obtaine d from cl       aim ants . W e are e ncourage d
by SSA’    s im pl   e m e ntation of M CS re l e as e 3.6.1 and M ES re l     e as e 3. H ow e ve r, w e
be lie ve th at m ore s h oul    d be done to: 1)re s ol    ve th e BO SSN al                   y
                                                                                  e rts curre ntl
outs tanding, 2)pre ve nt future ove rpaym e nts , and 3)e ns ure com pl                iance w ith le gal
re q uire m e nts . A l  th ough SSA h as d e cl  ine d to im pl  e m e nt controle nh ance m e nts as
a re s ult of pre vious O IG re ports , w e be l    ie ve th at th e probl  e m s outine
                                                                                       l d in th is
re port provide convincing argum e nts for th e A ge ncy to re cons ide r its pos ition.11

For ill
      us trative , but not s tatis ticalpurpos e s , e xtrapol     ating th e re s ul
                                                                                    ts from our
s am ple to th e 11,225 m is s ing al  e rts y ie lds e s tim ate d ove rpaym e nts and incorre ct
paym e nts to be ne ficiarie s of $4 m il  lion. Additional      ly, w e w e re unabl  e to de te rm ine
corre ct SSNs for 6 of th e 129 BO SSN al          e rts in our s am pl e . Extrapol   ating from th e
s am ple to th e unive rs e of 29 ,705 al   e rts , w e e s tim ate th at $22 m il  l
                                                                                    ion w as
im prope rly paid to be ne ficiarie s w h os e SSNs coul       d not be de te rm ine d.




11
  Th e s e re ports incl ude 1)an H H S/O IG re port e ntitl  e d Re vie w of Ch il d D e pe nde nts ’D ate s of Birth
on th e M as te r Be ne ficiary Re cords of Titl e IIBe ne ficiarie s (A -01-9 2-02001), is s ue d in M arch 19 9 3;
and 2)an SSA /O IG re port e ntitl   e d Re vie w of Inte rnalControl     s in th e SocialSe curity
Adm inis tration’ s M ode rnize d Cl aim s Syste m (A -04-9 5-06019 ), is s ue d M ay 16, 19 9 7.


                                                         11

   CO NCLUSIO N AND RECO M M END A TIO NS


Bas e d on th e re s ul ts of our re vie w , it is our opinion th at, during our audit
pe riod, SSA ’  s FO appl    ication de ve l opm e nt proce s s did not h ave s ufficie nt
control  s in place to pre cl   ude th e paym e nt of be ne fits to auxil  iary/s urvivor
cl aim ants w h o appl   ie d for be ne fits w ith an unk now n or unve rifie d SSN. A s
s uch , w e re com m e nd th e fol  low ing corre ctive actions to e ns ure SSA ’    s future
com pl  iance w ith l e galre q uire m e nts :

1. Tak e appropriate action to re s ol
                                     ve al louts tanding m is s ing and unve rifie d SSNs
              y m anne r and e val
   in a tim e l                  uate th e re s ul
                                                 ts to de te rm ine w h e th e r th e re are any
   indications of fraud th at m ay w arrant re fe rralto O IG’ s O ffice of Inve s tigations .

2. Re cove r ove rpaym e nts total ing $4,444 m ade to be ne ficiarie s w h o h ad e arnings
   in e xce s s of annuallim itations .

3. Se e k re s titution of $15,165 in be ne fits w rongl
                                                       y paid afte r a cl
                                                                        aim ant’
                                                                               s d e ath .

4. Re q uire m anage m e nt approvalvia e ntry of a s e cond pe rs onalide ntification
   num be r in M CS to ove rride s y s te m e dits (e .g., D e ve l
                                                                  opm e nt W ork s h e e t is s ue s )
   de s igne d to pre cl
                       ude th e aw ard of be ne fits to cl  aim ants w ith an unve rifie d
   SSN.

5. Is s ue a m e m orandum to al     lSSA pe rs onne lre s pons ibl   e for proce s s ing auxil
                                                                                              iary
   and s urvivor be ne ficiarie s th at w il lre e m ph as ize th e im portance of fol   l
                                                                                         ow ing
   e s tablis h e d proce dure s s o th at a prope r de te rm ination of e ligibil
                                                                                 ity can be
   m ade .

AGENCY CO M M ENTS

In its w ritte n re s pons e to our draft re port, SSA agre e d w ith four of th e five
re com m e ndations . Spe cifical     l
                                      y, SSA s tate d th at it is al  re ady purs uing appropriate
re m e die s for th e cas e s in w h ich ove rpaym e nts and incorre ct paym e nts w e re
ide ntifie d. Furth e r, SSA pl   ans to is s ue a m e m orandum th at w il     l: 1)ins truct
pe rs onne lto re duce th e num be r of outs tanding al        e rts ;2)re e m ph as ize th e
im portance of fol     l
                       ow ing e s tabl is h e d proce dure s ;and 3)e val   uate s im ilar type cas e s
for indications of fraud and m ak e appropriate re fe rral          s to th e O IG.

SSA disagre e d w ith our re com m e ndation th at w oul    d re q uire SSA m anage m e nt
approvalto ove rride s y s te m e dits d e s igne d to pre cl
                                                            ude th e aw ard of be ne fits to


                                                  12

claim ants w ith an unve rifie d SSN. In its re s pons e , SSA s tate d th at th e unve rifie d
SSNs re s ul t from m inor dis cre pancie s be tw e e n inform ation e nte re d into M CS and
inform ation s tore d on th e Num ide nt. Furth e r, SSA re s tate d th at th e O IG audit did
not re port a m one tary e ffe ct as s ociate d w ith th e s am pl e of be ne ficiarie s w ith
unve rifie d SSNs . Th e re fore , SSA did not be l   ie ve th at re q uiring a m anage r’  s re vie w
to ove rride th e e dit w ould be cos t-e ffe ctive . Additional    ly, SSA as s e rte d th at th is
controlw oul   d im pe de th e proce s s ing of th e cl aim . SSA did agre e th at th e s e
dis cre pancie s s h oul
                       d be re s olve d in a tim e ly m anne r and w il   lis s ue a m e m orandum
to appropriate s taff. (Se e A ppe ndix A for th e ful     lte xt of th e A ge ncy’   s com m e nts .)

O IG RESPO NSE

O ur re vie w dis cl  os e d th at alth ough SSA h as im pl       e m e nte d proce dure s de s igne d to
com pl y w ith th e provis ions of P.L. 100-647, w e be l             ie ve th at furth e r e fforts could
be tak e n to s tre ngth e n control    s w ith in SSA ’   s cl aim s appl   ication proce s s to e ns ure
com pl iance w ith l    e galand A ge ncy re q uire m e nts . W h il
     e criticalide ntifying
inform ation is com pare d to SSA ’         s m as te r fil
                                                          e s for al  lcl aim ants , an e dit doe s not

pre ve nt paym e nt w h e n dis cre pancie s e xis t. SSA ’        s pol  icy s tate s th at if claim ant
inform ation e nte re d in M CS doe s not re concil          e w ith inform ation containe d in M ES,
tw o D e ve l opm e nt W ork s h e e t is s ue s (ite m s ne e ding re s ol ution)w il   lbe propagate d.
Th e pol  icy al s o s tate s th at M CS contains a re ce ipt date fie l       d in w h ich SSA
pe rs onne ls h oul  d e nte r th e date e vide nce w as pre s e nte d by th e cl       aim ant to re s olve
th e dis cre pancy (D e ve l   opm e nt W ork s h e e t is s ue ). H ow e ve r, if SSA pe rs onne lw ant
to com pl   e te proce s s ing of a cl  aim and e vide nce h as not be e n pre s e nte d to re s ol      ve
th e dis cre pancy, th e y m ay e nte r s ix X’     s in th e re ce ipt date fie l  d rath e r th an an
actualdate .

W e be l ie ve th at th e inclus ion of s ix X’s (XXXXXX)in th e re ce ipt date fie l    d of th e
D e ve l
       opm e nt W ork s h e e t w ith out m anage m e nt concurre nce circum ve nts th e inte nt
of th e control   . Cons e q ue ntl y, O IG affirm s th is re com m e ndation and re q ue s ts th at
SSA re cons ide r its pos ition on re q uiring m anage m e nt approvalto ove rride s y s te m
e dits d e s igne d to pre clude th e aw ard of be ne fits to cl  aim ants w ith an unve rifie d
SSN. Furth e r, if FO pe rs onne lw e re re q uire d to re s ol  ve dis cre pancie s w h il
                                                                                          e
com pl  e ting th e initialclaim s appl  ication, th e ne e d for BO SSN al  e rts w ould be
re duce d s ignificantl  y.




                                                    13

A PPEND ICES

                      A PPEND IX A



AGENCY CO M M ENTS

                                                                                  A PPEND IX B



            M A JO R REPO RT CO NTRIBUTO RS


O ffice of th e Ins pe ctor Ge ne ral

Gary K ram e r, D ire ctor, Program Audits (Eas t)
Be tty A l
         e xande r, D e puty D ire ctor, Enum e ration
Sh abl e Be ne fie l
                   d, Auditor
K im Byrd, Se nior Auditor



For additionalcopie s of th is re port, pl  e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral ’
          s Pub l
                ic A ffairs Spe cial
                                   is t at (410)9 66-9 135. Re fe r to Com m on
Ide ntification Num be r A -04-9 6-42000.
                              A PPEND IX C



SSA O RGAN IZ A TIO NA LCH ART

